                                     SOCIAL SECURITY
MEMORANDUM

Date:   March 8, 2002                                                       Refer To:

To:     Jo Anne B. Barnhart
        Commissioner

From:   Inspector General


Subject: Performance Measure Review: Reliability of the Data Used to Measure the Quality of
        the Social Security Administration’s Research (A-02-01-11011)


        Following consultations with congressional committees, the Office of the Inspector General
        agreed to review the Social Security Administration’s (SSA) performance indicators over a
        continuous 3-year cycle. We recently completed our first 3-year cycle. In conducting this
        work, we used the services of an outside contractor, PricewaterhouseCoopers, LLP, (PwC),
        to assist us in our efforts.

        For this report, we used PwC to conduct the review of two of the Agency’s performance
        indicators related to the quality of its research publications. The objective of the review
        was to assess the reliability of the data used to measure the quality of SSA’s research.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                         James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  PERFORMANCE MEASURE REVIEW:
  RELIABILITY OF THE DATA USED TO
    MEASURE THE QUALITY OF THE
 SOCIAL SECURITY ADMINISTRATION’S
             RESEARCH

     March 2002       A-02-01-11011



EVALUATION REPORT




                  .
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
  o   Promote economy, effectiveness, and efficiency within the agency.
  0   Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
  0   Review and make recommendations        regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
  0   Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
Evaluation of Selected Performance
Measures of the Social Security
Administration:
Reliability of the Data Used to Measure the Quality
of SSA’s Research


Office of the Inspector General
Social Security Administration
INTRODUCTION

This report is one of five separate, stand-alone reports, corresponding to the following Social
Security Administration’s (SSA) process and performance measures (PM):

q   Percent of customers assigning a high rating to the quality of SSA’s research and
    analysis products in terms of accuracy, reliability, comprehensiveness, and
    responsiveness. (PM #1)

       Fiscal Year (FY) 2000 Goal: Develop customer survey and data collection
       mechanism.

q   Percent of Major Statistical Products that are timely. (PM #2)

       FY 2001 Goal: Establish a baseline for percent of major statistical projects that are
       produced on schedule.

This report reflects our understanding and evaluation of the process related to PMs #1
and #2. To achieve its strategic goal, “To promote valued, strong, and responsive social
security programs and conduct efficient policy development, research, and program
evaluation,” SSA has developed several strategic objectives. One of these objectives is
“…to provide information for decision makers and others on the Social Security and
Supplemental Security Income programs through objective and responsive research,
evaluation, and policy development.” SSA’s FY 2001 Annual Performance Plan (APP)
contains two performance indicators developed to meet this objective as follows:

q   Percent of customers assigning a high rating to the quality of SSA’s research and
    analysis products in terms of accuracy, reliability, comprehensiveness, and
    responsiveness - This indicator will be considered achieved if SSA develops a customer
    survey and data collection mechanism.

q   Percent of major statistical products that are timely - This second indicator will be
    considered achieved if SSA establishes a baseline for percent of major statistical
    projects that are produced on schedule.

We performed our testing from September 21, 2000 through February 15, 2001. Our
engagement was limited to testing at SSA’s headquarters in Woodlawn, Maryland. The
procedures that we performed were in accordance with the American Institute of Certified
Public Accountants’ Statement on Standards for Consulting Services, and are consistent
with appropriate standards for performance audit engagements in Government Auditing
Standards (Yellow Book, 1994 version). However, we were not engaged to and did not
conduct an audit, the objective of which would be the expression of an opinion on the
reliability or accuracy of the reported results of the performance measures evaluated.
Accordingly, we do not express such an opinion.




                                                1
Performance Measure # 1 - Percent of customers assigning a high rating to the quality of
SSA’s research and analysis products in terms of accuracy, reliability, comprehensiveness,
and responsiveness.


BACKGROUND

This indicator has been created to measure the percent of customers assigning a high rating
to the quality of SSA’s research and analysis products in terms of accuracy, reliability,
comprehensiveness, and responsiveness. The goal during FY 2000 was to develop a
customer survey and data collection mechanism. After the first survey is administered SSA
plans to make updates based on the results, as appropriate. Below is an overview of SSA’s
customer satisfaction survey and data collection mechanism.
Survey Objectives
This initiative seeks to better understand the information needs of decision-makers and
other customers of SSA research, statistics, and policy analysis products and services.
Moreover, SSA seeks to determine how effectively it is meeting those needs. Specifically,
this study is to determine:

q      To what extent SSA’s work is reaching a broad audience in the research and policy
       community.

q      To what degree this work is perceived to be of high quality.

q      How satisfied the SSA customers are with the information they receive.
       It also aims to better understand the needs of active participants in the research and
       policy community who are currently non-users of SSA informational services.

Sample Design

The survey is expected to employ a stratified probability sampling design, where the strata
are defined based on the following customer characteristics:

I.        Decision-maker;
II.       Subscriber;
III.      Non-subscribers who are active in the research and policy community; and
IV.       Non-subscribers who are interested.

The first stratum, Decision-makers, consists of 59 individuals selected by SSA based on the
assumption that they have significant potential for influencing policy decisions. Those in the
second stratum, nearly 1,000, are individual subscribers to various SSA publications. The
third stratum is comprised of different individuals, including attendees of various SSA
conferences and members of the National Academy of Social Insurance (NASI). This
stratum includes about 1,500 individuals. The fourth stratum includes approximately 800
non-subscribers who are interested in receiving SSA statistical publications. While
individuals from the third and fourth strata originate from separate sources, they will be
combined to create an “active non-subscriber” group. The following table provides a
summary of the sampling design for this survey.



                                                 2
                     Table 1. Sampling Design and Universe Counts
Strata              Source                                        Population     Sample
                    Individually selected by SSA Office of
Decision-makers                                                   59             59
                    Policy
Subscribers         Subscribers to various SSA publications       978            978
                    Non-subscribers, attendees of Retirement
Active, Non-
                    Research Consortium and other                 1,422          485
Subscribers
                    conferences, as well as members of NASI
                    Non-subscribers, generated from
Non-subscribers     database of stakeholders, maintained by       814            278
                    SSA’s Office of Communication

Total                                                             3,273          1,800

Because the list of decision-makers is relatively small, the sample design calls for a census
of all these individuals. Further, because the subscriber group is expected to contain the
largest concentration of “users,” the entire list will also be included in the sample. For the
remaining two strata, however, it is not clear at this point what methods will be used to select
the needed samples. It appears that all lists have been examined to remove individuals with
multiple entries, though additional processing is required to identify addresses and or
telephone numbers where needed information is missing.

SSA personnel stated that the target response rate to this survey is expected to be at least 80
percent. Consequently, SSA anticipates needing a sample of about 1,250 to secure the required
1,000 responses. It is expected that this sample size will be sufficient for various statistical
analyses. It should be noted that SSA’s contractor deems the 80 percent response rate
unachievable and is designing the samples based on a lower rate of 50 percent. However, the
total sample of 1,800 will not be adequate to obtain the desired 1,000 responses should the
response rate be as low as 50 percent.

Questionnaire Design

The questionnaire for this survey is designed with the intent that respondents can complete
it within 15 minutes. Considering that the length of a survey can impact the response rate, it
is important to keep the response time within the specified time limit, even in a survey like
this where some respondents might have a vested interest.

Since there will be one single questionnaire for all sample types, a few skip patterns are
required to administer appropriate questions to corresponding respondents. For instance,
respondents who identify themselves in the survey as recent users will be asked about the
type, frequency, topics, quality, usefulness, and satisfaction with SSA materials. Non-users
will be surveyed about their Social Security related informational needs. Lastly, users and
non-users will also be asked about the most important research/policy issues that SSA
should focus on during the next few years.

Currently, the questionnaire is being tested and fine-tuned via focus groups and cognitive
interviews. The focus groups were conducted in December 2000 with a sample of users
with various informational needs. SSA personnel stated that, consistent with Office of



                                               3
Management Budget (OMB) restrictions, fewer than 10 respondents will participate in each
focus group. Following the focus groups, cognitive interviews will be conducted to further
test questionnaire content. These interviews are planned to be conducted over the
telephone with a combination of users and non-users once the questionnaire is finalized; the
date of which had not been determined at the time of our evaluation.

Administration/Data Collection (Anticipated)

Since the survey had not been administered at the time of our evaluation, this evaluation will
be limited to those procedures that have been proposed. According to the proposed plan,
the survey administration will consist of the following steps:

q   All sampled individuals will be mailed a pre-notification letter. This letter will provide a
    brief description of the purpose of the study and inform the individual that the
    questionnaire will be arriving shortly.

q   One week later, the survey packet will be mailed. This packet will consist of a copy of
    the questionnaire, a return envelope, and a letter regarding the purpose of the study.
    This letter will also assure confidentiality and specify the web-site address where
    respondents can visit to complete the survey on-line.

q   One week later, a reminder postcard will be sent to all sampled individuals.

q   Two weeks later, non-responder telephone calls will be initiated, at which point
    individuals will be given the option to complete the questionnaire over the phone, as well
    as on the web, or by mail.

It is anticipated that multiple data collection modes will help secure the required 80 percent
response rate. Meanwhile, inactive non-subscribers will be dropped from the survey and
excluded from the number of completes and the response rate.

Analysis and Report Generation (Anticipated)

SSA’s contractor anticipates the first step in the data analysis plan to be combining the data
gathered via the three modes of data collection into one file. This data file will then be
cleansed of duplicate entries. Next, the contractor will remove responses where over half of
the items are missing. Checks will also be performed to clean inconsistent data.
With the “cleansed” data, the contractor will conduct an analysis within the self-identified
users group. The users will be divided into two sub-groups – subscriber or non-subscriber,
based on their sample frame origin. Comparisons between the subscriber and non-
subscriber sub-groups are expected to be evaluated to determine any differences in the way
these groups perceive the quality of SSA’s work.

The primary analysis will focus around the subscriber and non-subscriber groups. In
addition to simple descriptive statistics, SSA is expecting analyses that will effectively
measure respondents’ evaluations and levels of satisfaction with the services they receive.
SSA’s contractor will also perform a leverage analysis to determine the most critical
characteristics in driving overall product and service satisfaction. This method uses
regression techniques to identify the most important factors that can predict the outcome
measure of interest. In the final report, SSA is expecting documentation regarding the
methodology used, and conclusions and recommendations for further study.


                                                 4
RESULTS OF EVALUATION

During the period of September 21, 2000 to February 15, 2001, we evaluated the current
processes and controls, which support the FY 2000 SSA performance measurement
process. Our evaluation of the information provided to us by SSA management and its
contractor as of February 15, 2001, allowed us to determine that SSA has made significant
progress to date in the implementation process, and it has the capacity to effectively
complete the implementation process.

                     Performance Measure                                              Reported Result

1. Percent of customers assigning a high rating to                      In the process of developing customer
   the quality of SSA’s research and analysis                           survey and data collection mechanism.
   products in terms of accuracy, reliability,
   comprehensiveness, and responsiveness.

Although not directly related to GPRA compliance, we noted the following
three opportunities for improvement:

1. Sampling frames do not provide a comprehensive listing of all users and non-users of
   SSA research products.

2. Limited information has been collected by SSA from non-users of SSA research
   products.

3. The questionnaire design could be improved by SSA.

These items were noted as a result of our testing of the SSA survey instrument, as it
currently exists, as well as the focus group documentation, sampling parameters, and
discussions with SSA regarding future plans.

This survey has not been conducted yet. As a result, our evaluation will be limited to the
steps that have been completed to date and the planning that has been done for future
steps. After the survey has been administered and the corresponding data has been
analyzed, it is critical to apply a similar evaluation to these future components of research.
The following is a listing of potential issues that deserve attention:

1. Sampling frames do not provide a comprehensive listing of all users and non-
   users of SSA research products.

Based on the very limited information provided by SSA’s contractor it appears that the
sampling frames that support the nonsubscriber stratum may not provide a complete listing.
In addition, these lists include ineligible (non-active) individuals, as well as inaccurate
contact information for a significant number of listed individuals.1 Consequently, the target
universe for this survey is not determinable at this time, and therefore the results of the
survey may not be generalized.



1
    Proposed sampling plan, data collection plan, and initial data analysis plans. SSA’s contractor, December 21, 2000.



                                                             5
The Paperwork Reduction Act of 1995, Implementing Guide, Chapter 6, E1 states that
statistical laws that permit inference from a sample to a population assume complete
coverage, complete response, and random selection. If any of these conditions are not met,
then inferences cannot be demonstrated to be valid (i.e. cannot produce results that can be
generalized to the universe of study). The OMB Resource Manual for Customer Survey
states, “The ability to make general statements about your agency’s customers based on
the survey results is linked to how complete and accurate your frame is.”

Furthermore, based on the contractor’s report from the focus groups, we also are aware of
inconsistencies in SSA’s current lists. Therefore, we suggest that SSA carefully reexamine
the sampling frame used to support the survey.

2. Limited information has been collected by SSA from non-users of SSA research
   products.

Limited information has and will be collected from the active non-user group. Focus groups
have been conducted to improve the effectiveness and quality of the questionnaire.
However, it appears that only the users of SSA services were included in the process and
focus groups, leaving out non-users, a group that can provide invaluable insight regarding
the available services. For example, users cannot comment on why they do not use SSA’s
services.

The OMB Resource Manual for Customer Survey, Chapter 3 Defining Customer Survey,
states, “It is important to talk to as diverse a group of customers as possible, so that no
major perspective or point of view is omitted.”

3. The questionnaire design could be improved by SSA.

The most recent draft of the questionnaire we have been provided, dated January 29, 2001,
asks non-users via an open-ended question, if there is any particular reason why they have
not used SSA’s information. The content of this question is a valuable addition to the
questionnaire design. However, because it is an open-ended question, fewer respondents
are likely to answer. Closed-ended questions receive better response rates than open-
ended questions, because they are less burdensome for respondents than open-ended
questions. The use of closed-ended questions will secure a higher response rate and will
improve the quality of the resulting data.2

CONCLUSIONS AND RECOMMENDATIONS

SSA is making progress in preparing for the implementation of this survey. Per
conversations with SSA, the contractor has revised the questionnaire to eliminate some of
the earlier issues. This process of questionnaire refinement is still in progress. It appears
that SSA, with its contractor support, has the capacity to implement the process.

It is important to note that even if everything proceeds according to the plans, this survey will
continue to have issues related to the extrapolation of results. Since the target universe for
this survey is not determinable, the results of the survey cannot be generalized to a known
universe of potential users and non-users, with any degree of validity at this time.
2
 Sudman, Seymour & Bradburn, Norman M. Asking Questions: A Practical Guide to Questionnaire Design. (1st ed.)
Jossey-Bass Inc., Publishers, 1982, pp.148 - 152.



                                                       6
We recommend:

1) SSA and its contractor should investigate alternative sources for a sampling frame, so
   they can better target the universe. For the current year, steps should be taken to refine
   the universe by eliminating “ineligible” individuals.
2) Since users cannot comment on why they do not use SSA’s services, SSA should
   conduct focus groups that also include non-users of SSA’s defined statistical products.

3) In order to increase response rate to this question and improve the quality of the
   resulting data, SSA should rephrase the question to non-users of SSA’s statistical
   products, regarding the reason why they have not used SSA’s information. The question
   could be a “check all” type question, with reasons why non-users have not used SSA
   information as response categories. In addition, SSA should include “Other:_________”
   as a response category.




                                              7
Performance Measure # 2 - Percent of Major Statistical Products that are timely.


BACKGROUND
The indicator created by SSA is to measure the “Percent of major statistical products that
are timely,” with the goal during FY 2000 to establish a baseline for timeliness. This
indicator is linked to SSA’s strategic objective to “Provide information for decision makers
and others on the Social Security and Supplemental Security Income programs through
objective and responsive research, evaluation, and policy development.”

The SSA APP for FY 2001 states that “Responsive research, evaluation, and policy
development means providing relevant information in the clearest possible manner with an
efficient use of resources.” The Office of Research, Evaluation and Statistics (ORES) has
selected five of their publications to measure.

I.     Fast Facts (annual)
       On Internet—10 weeks from release of Trustees Report
       In print—11 weeks from release of Trustees Report

II.    Income of the Population 55 or Older (biannual, in even years)
       On Internet—January 31
       In print-March 15

III.   Income of the Aged Chartbook (biannual, in even years)
       On Internet—March 31
       In print—April 7

IV.    Annual Statistical Supplement (annual)
       On Internet—in phases between August and December (still finalizing dates)
       In print—December 31

V.     SSI Annual Statistical Report (annual)
       On Internet—July 10
       In print—July 3

The publications selected by ORES were chosen based on their volume of usage. ORES
arrived at the above dates through: 1) detailed discussions with the division directors or
analysts involved in developing the publications and with staff of the Division of Information
Resources (DIR) in ORES, and 2) historical data from DIR for the last several years on
dates when documents were sent to the Office of Publications Management (OPUM), when
OPUM cleared the documents to be sent to the printer, and when documents were received
from the printer. These dates have been established as the measure of a report being
timely.

ORES receives the information to be included in the publications from several sources both
within and outside SSA. The measure begins when ORES receives the data and ends
when the information is published on the Internet and in hard copy. The ORES milestones
in the publication process are as follows:




                                               8
q   Data availability;

q   ORES analysts/programmer production of all text, tables and charts;

q   DIR completion of editing and production of charts;

q   For 3 publications, receipt of blue lines (a copy of the print format) from the printer;

q   DIR posting of document on Internet in PDF format; and

q   Receipt of publication from printer.

RESULTS OF EVALUATION

During the period of September 21, 2000 to February 15, 2001, we evaluated the current
processes, systems and controls, which support the FY 2000 SSA performance
measurement process. Our evaluation of the information provided by SSA management as
of February 15, 2001, allowed us to determine that SSA has made significant progress to
date in the implementation process, and it has the capacity to effectively complete the
implementation process.

                    Performance Measure                                    Reported Result

2. Percent of major statistical products that are timely          Established baseline schedule

However, we did note the following two opportunities for improvement:

1. SSA should incorporate other publications as part of this measure.

2. SSA is not fully evaluating the currency of the data.

These items were noted as a result of our discussions with SSA regarding current and future
plans.

After evaluating SSA’s documentation and speaking with the Deputy Associate
Commissioner of ORES it is apparent that SSA has put significant effort into deciding what
publications are to be measured and in creating a timetable for publication. The timelines
were established based on when ORES has historically received the information. Since part
of the information included in the publications comes from outside SSA, the established
deadlines may need to be adjusted in the future due to circumstances beyond SSA’s
control.

The following is a listing of potential issues that deserve attention.

1. SSA should incorporate other publications as part of this measure.

The strategic objective linked to this measure is for the entire agency while only one part of
the agency is being measured. Currently SSA is only measuring five statistical publications
that ORES produces. Other divisions of SSA produce material “…for decision makers and
others…” about the Social Security and Supplemental Security Income programs.



                                                9
Furthermore, this indicator only measures statistical publications, instead of statistical and
non-statistical publications about these programs. By including major publications produced
by other SSA divisions and major non-statistical products, the performance measure would
better support the strategic objective and allow management to see the timelines throughout
the agency rather than within one division. Thus, this would provide management with a
tool to measure the performance of divisions throughout the agency.

2. SSA is not fully evaluating the currency of the data.

The strategic objective linked to this measure requires the information to be relevant.
Currently SSA only measures the production cycle of the publication process. The
collection cycle is not included in the measure. By not including the collection process, the
metric does not yield a complete or full measurement of the time involved. If information
entering the production cycle is already outdated, it will not be relevant to users, and
therefore the measure does not evaluate whether the data was collected in a timely manner.
By measuring the entire publishing cycle from data collection through release to users,
management will be better able to evaluate if the information provided is relevant pertaining
to timeliness.

CONCLUSIONS AND RECOMMENDATIONS

SSA has started the process to develop a good measure to support it strategic objective;
however, the measure could be improved to better support the strategic objective. SSA is
only measuring the timeliness of publication of one division and only five publications, which
represent only a portion of the information provided to decision-makers for these programs.
The strategic goal is for all information used by SSA, not just that published by ORES.

While not measuring inputs versus outputs, the measure does fall within the intent of GPRA.
The measure, which is being used to establish whether information is being provided in a
timely manner, will provide management the ability to evaluate their processes and improve
internal management.

We recommend:

4) SSA should expand PM #2 to include additional types of reports and include publications
   produced by divisions other than ORES.

5) For the timeliness to be measured and to ensure that data being published is current,
   SSA should evaluate the entire publication cycle, not just the production cycle.




                                              10
OTHER MATTERS

SSA has not quantified the timeliness goal.

While SSA has established a timeline and cycle for the production of the publications, the
actual goal of how many of the publications have to be produced within their timeline in
order for SSA to meet its goal has not been set. SSA has not established the target goal,
i.e., what would be considered a success for this indicator. Do all of the publications have to
be produced by their established publication date or only 60 percent for the Agency to be
successful? GPRA states in section 1115 (a)(2), “…express such goals in an objective,
quantifiable, and measurable form unless authorized to be in an alternative form under
subsection (b).” Subsection (b) does not apply to this goal because it is feasible to meet the
criteria stated in section 1115 (a)(2).

Recommendation

6) Starting in FY 2002, SSA should consider establishing a quantitative goal (e.g., 95
   percent of all publications should be produced within their established timetable) in order
   to evaluate whether the timelines measure has been met.

By establishing what percentage of publication cycles has to be completed within their
established timeframe, management will be establishing target goals for the performance
indicator. This would allow management to assert whether they have met their goal and
allow it to be evaluated by outside observers.

APPROPRIATENESS OF PERFORMANCE MEASURES

As part of this engagement, we evaluated the appropriateness of each of the performance
measures with respect to GPRA compliance and SSA’s APP. We determined whether the
specific indicators and goals corresponded to the strategic goals identified in SSA’s APP,
determined whether each of these indicators accurately measures performance, and
determined their compliance with GPRA requirements.

Performance Measure #1 aligns logically with the SSA Strategic Plan but still needs
some improvement.

The relationship between PM #1 and the applicable SSA Strategic Goal is depicted in the
following figure:




                                              11
                                            SSA Mission
                         To promote the economic security of the nation's people
                        through compassionate and vigilant leadership in shaping
                            and managing America's social security programs.




                                          Strategic "Goal #1"
                            To promote valued, strong and responsive social
                             security programs and conduct effective policy
                            development, research and program evaluation.




                                           Strategic Objective
                        Provide information for decision-makers and others on the
                      Social Security and Supplemental Security Income programs
                       through objective and responsive research, evaluation, and
                                           policy development.




                                        Performance Indicator
                           Percent of customers assigning a high rating to the
                           quality of SSA's research and analysis products in
                           terms of accuracy, reliability, comprehensiveness,
                                          and responsiveness.



The SSA mission is supported by five strategic goals, including Goal #1, “to promote valued,
strong and responsive social security programs and conduct effective policy development,
research and program evaluation.” Goal #1, in turn, is supported by several strategic
objectives, including the relevant objective that deals with the provision of SSA information
to decision makers, “Provide information for decision-makers and others on the Social
Security and Supplemental Security Income programs through objective and responsive
research, evaluation, and policy development.” Performance Measure #1 depicts the
customer satisfaction with SSA research and analysis products. Assuming that the metric
has strong performance measurement attributes, the diagram indicates that PM #1 logically
aligns with SSA’s strategic planning process.

Based on the taxonomy of performance measures included in Appendix F, PM #1 is a
measure of accomplishment because it reports on a result (customer satisfaction) achieved
with SSA resources. It is further categorized as an outcome measure because it indicates
the accomplishments or results (customer satisfaction) that occur because of the services
(SSA research products) provided. As shown in Appendix F, outcome measures include
public perceptions of outcomes, such as a customer satisfaction index.

Within the framework of GPRA, Performance Measure #1 fits the intent of an outcome
measure because it is “…a description of the intended result, effect, or consequence that




                                                12
will occur from carrying out a program or activity.”3 The intent of this performance
measurement is to gauge customer satisfaction (i.e., the effect) for the activity of providing
research and analysis products. Assuming it is accurate, it can be useful to both
management and external stakeholders, as encouraged by OMB Circular A-11. However, we
have identified a few underlying deficiencies that indicate it may not be a reliable GPRA
performance indicator.

First, the metric may not promote an adequate and correct understanding of the subject
area. Outcome measures such as customer satisfaction indices are complex multivariate
metrics that depend on a host of attributes. Defining a critical performance indicator simply
based on a single percentage will fail to provide a comprehensive metric. Such simplistic
measures may not provide sufficient intelligence for taking appropriate action and
subsequently improving performance. Due to the sampling frame issue, there is no
guarantee the metric will provide a true picture of the value of SSA research data.

The data is partially subjective because it reflects the opinion of the respondents at the time
they answer the survey. Furthermore, use of the data to measure progress from year-to-
year is reliable only for the specific sample. Since the employed sampling method is not
probability based, the extrapolative power of the resulting survey data will remain
undeterminable. In addition, a performance metric should ideally allow SSA to track
progress over time. In this case, consistency may suffer due to the nature of the sampling
frame. If the survey is repeated from year to year, statistical comparisons between the
various years are likely to be unreliable.

At the time of this evaluation, SSA and their contractor had not yet determined a method for
analyzing and processing the survey data in order to obtain the desired baseline metric.
Furthermore, they had not yet established a method for evaluating progress over a multi-
year horizon. These shortcomings pose legitimate concerns, since such analyses are
essential for the metric to be useful.

Based on their assigned task, Office of Policy and their contractor have done well in
establishing the activities required for obtaining PM #1. Furthermore, the customer
satisfaction survey will be a useful product because SSA can use the data to gain valuable
insight into stakeholders’ needs with respect to the research and analysis products.
However, as a GPRA performance metric, PM #1 has underlying deficiencies and its
reliability is in question.

Recommendation

7) SSA should put this metric on hold until the contractor develops a method for analyzing
   the survey data, developing the baseline metric, and using the metric to manage
   performance over a multi-year horizon. If these objectives can not be satisfactorily
   completed, the metric should not be included in the GPRA measurement system.

Combined survey results can be misleading because the utility of the SSA research
and analysis products varies for each user.

At the time of this evaluation, neither ORES nor their contractor had established a plan for
computing the customer satisfaction results from the survey data. When this is determined,
3
    OMB Circular A-11 Preparation and Submission of Budget Estimates, section 200.2.



                                                          13
ORES should carefully consider the manner in which they combine the responses from the
various user types. The utility of SSA research products is not equal for each user. A few
significant respondents may rely extensively on the SSA research and analysis products as
crucial inputs to their own analytical and decision making products, which, in turn, are
important national policy tools in their own right. In such cases, research information used
by one user may have a significant benefit to society. On the other hand, many respondents
may utilize these products to a far lesser degree and may not rely on their timeliness and
accuracy to as great an extent. Unfortunately, these two types of customers carry the same
weight in the customer satisfaction survey results. This is a ramification of the survey’s
sampling frame. For example, assume that all of the significant users have responded and
that any additional responses will come from “occasional” users. As additional responses
are incrementally added to survey, the results may become skewed. The occasional users
may have either a higher or a lower opinion of the products relative to the significant users.
Regardless, they can change the apparent outcome of the customer satisfaction survey,
even though the overall value of the SSA research products to the public have changed very
little.

Recommendation

8) ORES should pay careful attention to the manner in which survey results are combined.

Performance Measure #2 aligns logically with the SSA Strategic Plan and can
potentially provide numerous management benefits.

The relationship between PM #2 and the applicable SSA Strategic Goal is depicted in the
following figure:




                                             14
                                        SSA Mission
                    To promote the economic security of the nation's people
                    through compassionate and vigilant leadership in shaping
                    and managing America's social security programs.




                                          Strategic "Goal #1"
                          To promote valued, strong and responsive
                          s o ci a l s ec u r ity p r o gr a m s an d c o nd u c t
                          effective policy development, research and
                          program evaluation.




                                       Strategic Objective
                          Provide information for decision-makers and
                          others on the Social Security and
                          Supplemental Security Income programs
                          through objective and responsive research,
                          evaluation, and policy development.




                                     Performance Indicators
                            Percent of major statistical products that
                            are timely.




The SSA mission is supported by five strategic goals, including Goal #1, “to promote valued,
strong and responsive social security programs and conduct effective policy development,
research and program evaluation.” Goal #1, in turn, is supported by several strategic
objectives, including the relevant objective that deals with the provision of SSA information
to decision makers, “Provide information for decision-makers and others on the Social
Security and Supplemental Security Income programs through objective and responsive
research, evaluation, and policy development.” Performance Measure #2 characterizes the
timeliness of the SSA statistical products. Assuming that the metric has strong performance
measurement attributes, the diagram indicates that PM #2 logically aligns with SSA’s
strategic planning process.

Based on the taxonomy of performance measures included in Appendix F, PM #2 is a
measure of accomplishment because it reports on a result (timeliness) achieved with SSA
resources. It is further categorized as an output measure because it indicates the quantity
of services provided. As shown in Appendix F, output measures include indications of the
quantity of a service provided that meets a certain quality requirement, such as on-time
standards of achievement.




                                                     15
Within the framework of GPRA, PM #2 fits the intent of an output measure because it is
“…a description of the level of activity or effort that will be produced or provided over a
period of time or by a specified date, including a description of the characteristics and
attributes (e.g., timeliness) established as standards in the course of conducting the activity
or effort.” While this performance measure may, in theory, represent a good measure of
timeliness, it also has some areas for improvement.

The metric is narrow in focus. Specifically, it counts the timeliness of publications from only
ORES, thus representing only one office within the agency. However, by its very name and
description, stakeholders may be led to believe that it measures the timeliness of all of
SSA’s major statistical products. Furthermore, the metric only includes five products in its
calculation. In addition, the measure does not distinguish between large and small-scale
efforts. A publication that theoretically requires 80 percent of the resources will impact the
measure in the same way as a publication that requires negligible resources. Finally, there
is no policy as of yet for determining the circumstances that allow for a change in the target
date without being penalized for the lack of timeliness.

Despite these issues, the metric has strong performance measure attributes and can be
used as an excellent project management tool. In fact, SSA is encouraged to leverage the
additional benefits that can be obtained with this type of project management tool. For
example, they could focus beyond the literal description of the metric and utilize the data
itself as a management tool. As a result, real time decisions and corrections can be made
during the publication process to help improve the on-time delivery of the products. It is also
noteworthy that the measure addresses only the steps of the publishing process that are
completed after ORES receives the relevant information.

Recommendation

9) To further leverage the project management characteristics of this metric, it is
   recommended that ORES develop methods for obtaining status throughout the
   publishing process. Finally, it would be relatively easy to compare the timeliness of SSA
   statistical products with the on-time delivery of publications from other agencies. It is
   recommended that ORES decompose their publication process into major subtasks, as
   necessary, so that they can benchmark against other government and commercial
   publishing operations. In addition, ORES should expand the metric to include other
   documents. They should also develop a policy to address the change of target dates.

Agency Comments

The Agency agreed with eight of the nine recommendations within this report. It disagreed
with the recommendation to “…include additional types of reports and include publications
produced by divisions other than the Office of Research, Evaluations, and Statistics” in the
performance measure, “Percent of major statistical products that are timely.” SSA
determined that there are no other statistical publications that are produced regularly, have
a statutory deadline, or are considered major in terms of usage.

In agreeing with the recommendation that SSA should evaluate the entire publication cycle,
not just the production cycle, when measuring the timeliness of its statistical products, SSA
stated that it was already doing what was recommended.




                                               16
OIG Response

We appreciate the Agency’s response to this report. The implementation of the
recommendations will help to ensure for the better measurement and reporting of the quality
of SSA’s research. We continue to recommend that SSA consider the inclusion of additional
types of reports and publications in its measurement of the timeliness of its research. While
the Agency may have determined that it currently includes all publications that are regularly
produced, have a statutory deadline, or are considered major in terms of usage, we believe
there are other research related publications produced by the Agency that are used by
decisionmakers. While these publications may not be regularly produced or mandated by
statute, their timely delivery to decisionmakers is nonetheless important. The measurement
of the timeliness of all research products produced in a given year is in line with the strategic
objective related to the timeliness performance measure--Provide information for decision-
makers and others on the Social Security and Supplemental Security Income programs
through objective and responsive research, evaluation, and policy development.

We also continue to recommend that SSA evaluate the entire publication cycle, and not just
the production cycle, when measuring the timeliness of its statistical products. SSA
currently does not measure the collection cycle of the process for all of the publications
being measured. By measuring the entire publishing cycle, from data collection through
release to users, SSA will be better able to evaluate if the information provided is relevant to
its users.




                                               17
                            APPENDICES


APPENDIX A – Scope and Methodology
APPENDIX B – Acronyms
APPENDIX C – Agency Comments
APPENDIX D – Performance Measure Summary Sheets
APPENDIX E – Performance Measure Process Maps
APPENDIX F – Performance Measure Taxonomy
                                                                               Appendix A

                          SCOPE AND METHODOLOGY

The Social Security Administration (SSA) Office of the Inspector General contracted
PricewaterhouseCoopers (PwC) to evaluate 11 SSA performance indicators identified in its
FY 2001 APP. We performed our testing from September 21, 2000 through February 15,
2001.

Our engagement was limited to testing at SSA’s headquarters in Woodlawn, Maryland. The
procedures that we performed were in accordance with the American Institute of Certified
Public Accountants’ Statement on Standards for Consulting Services, and are consistent
with appropriate standards for performance audit engagements in Government Auditing
Standards (Yellow Book, 1994 version). However, we were not engaged to and did not
conduct an audit, the objective of which would be the expression of an opinion on the
reliability or accuracy of the reported results of the performance measures evaluated.
Accordingly, we do not express such an opinion.

For these two performance indicators, PwC was asked to assess SSA’s progress to date in
the implementation process, and evaluate if SSA has the capacity to effectively complete
the implementation process.

1. Percent of customers assigning a high rating to the quality of SSA’s research and
   analysis products in terms of accuracy, reliability, comprehensiveness, and
   responsiveness. (PM #1)

We performed an evaluation of the survey methodology used for this performance measure,
to assess SSA’s progress in implementation of the survey and ability to complete the
implementation process. Specifically, we assessed completed steps associated with the
sampling frame, the sample design, and the draft of the questionnaire. This included
evaluating survey objectives, sample and questionnaire designs, data collection, and
analysis and report generation.

We obtained an understanding of the underlying process and procedures surrounding the
implementation of the measure through interviews and meetings with the appropriate SSA
and contractor personnel and by reviewing and evaluating the following documentation:

q   SSA’s Statement of Work, dated July 2000;
q   Most recent draft of the questionnaire, dated January 29, 2001;
q   Contractor’s status report to SSA, Office of Policy, dated October 27, 2000, regarding:
    “Sample frame, initial recommendations for data collection, and plans for pretest and
    focus group;”

q   Focus Group report, dated December 21, 2000;




                                           A-1
                                                                              Appendix A
q   Contractor’s memo to SSA, Office of Policy, dated January 12, 2001, regarding
    “Proposed sampling plan, data collection plan, and initial data analysis plan.” This
    memo provided a summary of recent developments and modifications to the original
    plan

q   General Accounting Office (GAO) reports on SSA FY 2001 Performance Plan.

2. Percent of Major Statistical Products that are timely. (PM #2)

In order to assess SSA’s progress to date in the implementation process and evaluate if
SSA has the capacity to effectively complete the implementation, we obtained an
understanding of the underlying process and procedures surrounding the implementation of
the measure through interviews and meetings with the appropriate SSA personnel. In
addition, we evaluated the following:
q   Memo from ORES regarding publication process and method used to established
    timelines for publication;

q   Process/cycle memos for the publications to obtain an understanding of the publication
    process; and
q   GAO reports on SSA FY 2001 Performance Plan.

3. Determined whether both performance measures were meaningful and in
   compliance with GPRA.

As part of this engagement, we evaluated the appropriateness of each of the performance
measures with respect to GPRA compliance and SSA’s APP. To do so, we determined
whether the specific indicators and goals corresponded to the strategic goals identified in
SSA’s APP, determined whether each of these indicators accurately measure performance,
and determined their compliance with GPRA requirements.




                                           A-2
                                                        Appendix B
                               ACRONYMS


APP     Annual Performance Plan
DIR     Division of Information Resources
FY      Fiscal Year
GAO     General Accounting Office
GASB    Government Accounting Standards Board
GPRA    Government Performance Results Act
NASI    National Academy of Social Insurance
OASDI   Old Age, Survivors, and Disability Insurance
OIG     Office of the Inspector General
OMB     Office of Management and Budget
OP      Office Policy
ORES    Office of Research, Evaluation and Statistics
PM      Performance Measure
PwC     PricewaterhouseCoopers LLP
SSA     Social Security Administration
SSI     Supplemental Security Income
OPUM    Office of Publications Management
                  Appendix C
AGENCY COMMENTS
                                   SOCIAL         SECURIlY

MEMORANDUM


     December   10,   2001                                                 ReferTo: SlJ-3

To   JamesG. Ruse, Jr.
     Inspector General

     Larry Dye       --/9-r
     Chief of Staff ~~               r-

     Office of the Inspector General (OIG) Draft Report, "Perfonnance Measure Review: Reliability
     of the Data Used to Measure the Quality of the Social Security Administration's Research"
     (A-M-Ol-llOI1    )-INFORMATION
        O:J-
     We appreciate OIO's efforts in conducting this review. Our comments on the report content
     and recommendations are attached.

     Pleaselet us know if we may be of further assistance. Staff questions may be referred to
     Trudy Williams on extension 50380.

     Attachment:
     SSA Response
                                                                               Appendix C
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA
USED TO MEASURE THE QUALITY OF THE SOCIAL SECURITY
ADMINISTRATION’S RESEARCH” (A-02-01-11011)


Thank you for the opportunity to review and comment on this draft report. We are pleased to
note that OIG acknowledges that SSA has developed useful performance indicators in the spirit
of the Government Performance and Results Act (GPRA) and has discussed them in detail in
the Fiscal Year (FY) 2001 Performance Plan.

Our comments on the report recommendations are detailed below.

Performance Measure Number 1 - Percent of Customers assigning a high rating to the
quality of SSA’s research and analysis products in terms of accuracy, reliability,
comprehensiveness, and responsiveness.

Recommendation 1

SSA and its contractor should investigate alternative sources for a sampling frame, so they
can better target the universe. For the current year, steps should be taken to refine the
universe by eliminating “ineligible” individuals.

Comment

We agree. SSA has long recognized that measuring satisfaction with policy analysis
products is inherently difficult, especially in identifying actual and potential customers.
SSA is the only agency that is attempting to include such a measure in its performance plan.
In order to meet our goal of conducting an initial survey in FY 2001, we used the best
information that could be developed, while recognizing that we did not have a fully
satisfactory sampling frame. However, OIG has offered no possible solutions. We believe
that attempting to measure customer satisfaction is important, even if it cannot be done with
complete precision, and we will continue to do so periodically. Consequently, if we cannot
develop a measure that is statistically representative and can be tracked over time, we will
drop this item from the performance plan.

Recommendation 2
Since users cannot comment on why they do not use SSA’s services, SSA should conduct
focus groups that also include non-users of SSA’s defined statistical products.
Comment

We agree. We will implement this recommendation before conducting the next survey in FY
2004.




                                             C-1
                                                                               Appendix C

Recommendation 3
In order to increase response rate to this question and improve the quality of the resulting
data, SSA should rephrase the question to non-users of SSA’s statistical products, regarding
the reason why they have not used SSA’s information. The question could be a “check all”
type question, with reasons why non-users have not used SSA information as response
categories. In addition, SSA should include “Other:_________” as a response category.
Comment

We agree and will implement this recommendation before conducting the next survey in FY
2004.

Performance Measure Number 2 (PM #2) -Percent of Major Statistical Products that
are timely.

Recommendation 4

SSA should expand PM #2 to include additional types of reports and include publications
produced by divisions other than the Office of Research, Evaluation, and Statistics (ORES).

Comment

In the report, OIG acknowledges the Agency made a significant effort in identifying
publications for this measure. We have determined that no other SSA statistical publications
are produced regularly, have a statutory deadline, or are considered major
in terms of usage. Therefore, we disagree with this recommendation.

Recommendation 5

For the timeliness to be measured and to ensure that data being published is current, SSA
should evaluate the entire publication cycle, not just the production cycle.

Comment

We agree and believe that we are already doing what is recommended, with the exception of
benchmarking against other publishing operations. The current timetable lists the reference
period of the data, when the data will become available, when analysts will complete a draft,
when editing and production will be completed, when the document will be posted on the
Web and when we will receive the published document from the printer. Most of these
publications are based on SSA program data and appear within months of the end of the
reference year. Two of the publications are based on a Census Bureau survey that becomes
available within six months of data collection. The schedule also includes target dates for
each major function in the production process, so that we can track the source of any
problems in meeting the ultimate deadline. Finally, the schedule is updated annually to allow
for changes in target dates. In FY 2002, target dates were modified to reflect the need for all
publications to be section 508 compliant. Some dates are specified in terms of elapsed time


                                             C-2
                                                                                Appendix C
from the reference period of the data, others are fixed dates. However, no meaningful
comparison can be made between our schedules and those of other agencies without
conducting a detailed analysis of the complexity of the information being released and the
resources available to produce it. Comparisons with commercial publishing operations
would need to consider that commercial entities are not required to use the Government
Printing Office or to be section 508 compliant. This performance measure is already
resulting in shorter timeframes and reliable schedules for users. We will continue to look for
ways to improve our processes.

Other Matters


Recommendation 6

Starting in FY 2002, SSA should consider establishing a quantitative goal (e.g.,
95 percent of all publications should be produced within their established timetable) in order
to evaluate whether the timeliness measure has been met.

Comment

This has now been done. SSA’s goal for FY 2001 was to develop a baseline for this
measure. SSA’s goal for FY 2002 is to produce all publications on time.

Recommendation 7

SSA should put this metric on hold until the contractor develops a method for analyzing the
survey data, developing the baseline metric, and using the metric to manage performance
over a multi-year horizon. If these objectives cannot be satisfactorily completed, the metric
should not be included in the GPRA measurement system.

Comment

See response to recommendation 1.

Recommendation 8

The Office of Research, Evaluation and Statistics (ORES) should pay careful attention to the
manner in which survey results are combined.

Comment

We agree with the intent of this recommendation but not with trying to differentiate
“significant” users from others. The contractor’s report on the results of the customer
satisfaction survey provides not only overall results but also results by four groups of


                                              C-3
                                                                               Appendix C
respondents (decisionmakers, subscribers, nonsubscribers, and stakeholders). The results
show very little difference in outcomes across the four categories of respondents.

Recommendation 9

To further leverage the project management characteristics of this metric, it is recommended
that ORES develop methods for obtaining status throughout the publishing process. Finally,
it would be relatively easy to compare the timeliness of SSA statistical products with the on-
time delivery of publications from other agencies. It is recommended that ORES decompose
their publication process into major subtasks, as necessary, so that they can benchmark
against other government and commercial publishing operations. In addition, ORES should
expand the metric to include other documents. They should also develop a policy to address
the change of target dates.

Comment

We have taken steps to address this recommendation. See our response to
recommendation 5.




                                             C-4
                                                                                                                              Appendix D


                                   PERFORMANCE MEASURE SUMMARY SHEETS


Name of Measure                                            Measure Type               Strategic Goal/Objective
                                                                                      Goal: To promote valued, strong, and responsive
1) Percent of Customers assigning a high rating to the     Percentage
                                                                                      social security programs and conduct effective policy
quality of SSA’s research and analysis products in terms
                                                                                      development, research, and program evaluation.
of accuracy, reliability, comprehensiveness and
responsiveness.                                                                       Objective: Provide information for decision makers
                                                                                      and other on the Social Security and Supplemental
                                                                                      Security Income programs through objective and
                                                                                      responsive research, evaluation and policy
                                                                                      development.

Purpose                                                                               Survey Frequency

To assess the percent of customers assigning a high rating to the quality of SSA’s    The survey has not been developed at this point. SSA
research and analysis products in terms of accuracy, reliability, comprehensiveness   has not yet determined the frequency in which the
and responsiveness; SSA will develop a preliminary questionnaire to gather            survey will be administered.
information from customers about the quality of research, analysis and evaluation
products. SSA will also identify customers from whom feedback will be elicited.


Target Goal                          How Computed                                                                              Data
                                                                                                                               Source
To develop a customer survey and     This goal will be considered achieved if SSA:                                             SSA’s
data collection mechanism.           a) Develops a survey that gathers information about whether research and analysis         Contractor
                                         identifies new/emerging issues and provides accurate, reliable comprehensive and
                                         responsive research, analysis and evaluation products.
                                     b) Identifies customers from whom feedback will be elicited, and
                                     c) Creates a mechanism by which to administer the survey and process the data.




                                                                     D-1
                                                                                                                             Appendix D


Designated Staff Members                                               Division
Michael A. Cronin                                                      Office Policy (OP)
Susan Grad
John Woods

Testing and Results

We obtained an understanding of the underlying process and procedures surrounding the implementation of the measure through interviews
and meetings with the appropriate SSA and its contractor personnel and by evaluating the following documentation:

·  Contractor Statement of Work, dated July 2000.
· Most recent draft of the questionnaire, dated January 29, 2001
· Contractor’s status report to SSA, Office of Policy, dated October 27, 2000, regarding: “Sample frame, initial recommendations for data
   collection, and plans for pretest and focus group.”
· The Focus Group report, dated December 21, 2000.
· Memo from SSA’s Contractor to SSA, Office of Policy, dated January 12, 2001, regarding “Proposed sampling plan, data collection plan,
   and initial data analysis plan.” This memo provided a summary of recent developments and modifications to the original plan.
Refer to “Results of Evaluation” for a description of the findings.




                                                                    D-2
                                                                                                                                    Appendix D



Name of Measure                                             Measure Type                 Strategic Goal/Objective
2) Percent of major statistical products that are timely.   Percentage                   Goal: To promote valued, strong, and responsive social
                                                                                         security programs and conduct effective policy
                                                                                         development, research, and program evaluation.
                                                                                         Objective: Provide information for decision makers and
                                                                                         others on the Social Security and Supplemental Security
                                                                                         Income programs through objective and responsive
                                                                                         research, evaluation and policy development.

Purpose                                                                                                          Frequency
Measure of the extent to which SSA’s major statistical products are produced in a timely manner.                 Annual Indicator



Target Goal                                                                                                      Data Source
This goal will be considered achieved if SSA establishes a baseline for percent of major statistical projects    Bureau of the Census
that are produced on schedule.                                                                                   SSA Office of Systems,
                                                                                                                 Division of Program Studies

Designated Staff Members                                                                                         Division
Susan Grad                                                                                                       OP
Alexander Estrin                                                                                                 ORES


Testing and Results

We obtained an understanding of the underlying process and procedures surrounding the implementation of the measure through interviews
and meetings with the appropriate SSA personnel. In addition, we evaluated the following:
· Memo from ORES regarding publication process and method used to established timelines for publication
· Process/cycle memos for the publications to obtain an understanding of the publication process
Refer to “Results of Evaluation” for a description of the findings.




                                                                         D-3
                                       Appendix E


1   PERFORMANCE MEASURE PROCESS MAPS
                                                             Performance Measure #1                                                                Appendix E
                                                           Customer Satisfaction Survey



                                                           Goal #1 is to promote valued, strong, and
                                                           responsive social security programs and
                                                           conduct effective policy development,
                                                           research, and program evaluation.



                                                                         Prepare
                                   Rework Goal #1
                                                                      Statement of
                                   of Performance                                                      Award Contract
                                                                      Work prepared
                                        Plan
                                                                       (July 2000)




                                Develop questionnaire                                                                                            Analyze results and prepare
Develop survey objectives                                     Develop sampling plan                         Administer survey
                                       design                                                                                                               report




Details:                                                     Provide contractor multiple
                              Provide contractor with a          sample frame with                                                                 Complete a preliminary
                                                                                                                Complete all
                              draft of the questionnaire    approximately 3,000 names                                                               analysis of the data
                                                                                                            preparations needed
                                                            created from multiple lists of
                                                                                                           to conduct the survey
                                                              targeted subpopulations
 Determine to what extent
 work is reaching a broad
 audience in the research/                                                                                                                         Complete a final report on
 policy community and is                                         Develop a stratified                                                               the project, including full
                              Conduct focus groups with                                                                                           discussion of methodology,
 perceived to be meeting                                     probability sample design                     Conduct the survey,
                              users                                                                                                                   further data analysis,
 their needs                                                  yielding a target of 1,000                   including follow-up
                                                            completed questionnaires or                                                                 conclusions, and
                                                                                                           contacts to achieve
                                                                      interviews                                                                 recommendations for further
 Determine to what degree                                                                                   targeted response
                                                                                                                                                               study
 this work is perceived to                                                                                         rates
 be of high qualtiy and       Pretest the instrument
 elicits high levels of       through cognitive             Specify intended methods of
 customer satisfaction        interviews with users         data collection, and develop
                                                               plans for maximizing                         Code the data, and
                                                                   response rates                            prepare data files
                                                                                                            and corresponding
 Better understand needs                                                                                      documentation
 of potential users - those
 who are active in this           Finalize the survey          Develop plans for data
 research/policy area, but            instrument               analysis, and prepare
                                                                required forms and
 currently non-users of
                                                             supplementary material for
 SSA information
                                                            OMB clearance of the survey                             Shaded steps have not been completed
                                                                                                                               as of 2/15/2001




                                                                              E-1
                                                                                                                                Appendix E
                                                          Performance Measure # 2
                                                         Publications To be Produced


                                              Goal #1 is to promote valued, strong, and responsive social
                                              security programs and conduct effective policy development,
                                              research, and program evaluation.



                           Income of the Population               Income of the Aged                Annual Statistical            SSI Annual Statistical
      Fast Facts
                                 55 and Older                          Chartbook                      Supplement                         Report
       (Annual)
                              (Biannual even yrs)                  (Biannual even yrs)                  (Annual)                        (Annual)




 On Internet - 10 weeks     On Internet - January 31              On Internet - March 31          On Internet - in phases
                                                                                                                                    On Internet - July 10
   In Print - 11 weeks                                                                             (August - December)
                              In Print - March 15                 In Print - December 31
From release of Trustees                                                                                                              In Print - July 31
         Report                                                                                   In Print - December 31

                                                       Process to Publicize Information




                                        Prepare publications                     Perform editing and complete                  Receive blue lines from
 Gather data and perform              (text, tables and charts)                       production of charts                     printer for 3 publications
        Research




                                   Post document on Internet                                            Receive publications
                                         in PDF format                                                     from printer




                                                                     E-2
                                                                                                                                                                                          Appendix F


                                                                 PERFORMANCE MEASURE TAXONOMY



                                                                                        Categories of Performance Measures:

Efforts are the amount of financial                                                                                                                                                          These indicators measure the
and nonfinancial resources (in                                                                                                                                                               resources used or cost (for
terms of money, material, and so
                                                                                                                                                                3) Measures that relate      example, in dollars, employee-
                                                                                                      2) Measures of
forth) that are put into a program    1) Measures of efforts                                                                                                           efforts to            hours, or equipment used) per
or process. Measures of service
                                                                                                     accomplishments                                                                         unit of output. They provide
                                                                                                                                                                   accomplishments
efforts also include ratios that                                                                                                                                                             information about the production
compare financial and                                                                                                                                                                        of an output at a given level of
nonfinancial resources with other                                             Accomplishment measures report                                                                                 resource use and demonstrate an
measures that may indicate                                                    what was provided and achieved                                                                                 entity's relative efficiency when
potential demand for services,                                                with the resources used.                                                                                       compared with previous results,
such as general population,                                                                                                                                                                  internally established goals and
service population, or lane-miles                                                                                                                                                            objectives, generally accepted
                                                                                              Outputs measure the quantity of services provided;
of road.                                                                                                                                                                                     norms or standards, or results
                                                                                              outcomes measure the results of providing those
                                                                                                                                                                                             achieved by similar jurisdictions.
                                                                                              outputs.


                                                                                                                                                                                       Cost–outcome measures that
   Financial resources that are put
                                                                                                                                                                                       relate efforts to the outcomes
      into a program or process
                                                                                  Output measures                                                                                           or results of services




   Non-financial resources that are                                                                                                         Outcome measures                           Efficiency measures that relate
          put into a program                                                                                                                                                                   efforts to outputs
              or process                                                                                                                                                                          of services

                                                                                                                                         These indicators measure
                                                  Quantity of a service                                                                  accomplishments or results that occur (at
                                                  provided that meets a                              Quantity of a service               least partially) because of services
                                                      certain quality                                     provided                       provided. Results also include measures
                                                                                                                                         of public perceptions of outcomes. For
                                                       requirement                                                                       example, measures may include the
                                                                                                                                         percentage of students achieving a
                                                                                                                                         specified skill-level gain in reading; the
                                      These indicators measure the physical quantity of          These indicators measure the
                                                                                                                                         percentage of the population being served
                                      a service provided that meets a test of quality. For       physical quantity of a service
                                                                                                                                         by public transportation; the percentage of
                                      example, measures may include the percentage of            provided. For example, measures
                                                                                                                                         lane-miles of road in excellent, good, or
                                      students graduated or promoted who have met a              may include the number of
                                                                                                                                         fair condition; and the clearance rate for
                                      minimum prespecified standard of achievement;              students promoted or graduated;
                                                                                                                                         serious crimes or the percentage of
                                      the percentage of buses meeting a prespecified             the number of passenger miles
                                                                                                                                         residents rating their neighborhood as
                                      on-time standard of achievement; the percentage            provided by public transit; the
                                                                                                                                         safe or very safe.
                                      of lane-miles of road repaired to a certain minimum        number of lane-miles of road
                                      satisfactory condition; and the percentage of              repaired; and the number of crimes
                                      criminal investigations performed that result in the       investigated.                                          Adapted from GPRA, GASB Concept No. 2, and the
                                      identification of a prime suspect.                                                                              "Performance Measurement for Government" web site at
                                                                                                                                                                       Rutgers University
                                                                                                                                                      www.rutgers.edu/Accounting/raw/seagov/pmg/index.html
                           DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                            1
Management Analysis and Audit Program Support Staff, OFAM                 10
Inspector General                                                          1
Assistant Inspector General for Investigations                             1
Assistant Inspector General for Executive Operations                       3
Assistant Inspector General for Audit                                      1
Deputy Assistant Inspector General for Audit                               1
 Director, Data Analysis and Technology Audit Division                     1
 Director, Financial Audit Division                                        1
 Director, Western Audit Division                                          1
 Director, Southern Audit Division                                         1
 Director, Northern Audit Division                                         1
 Director, General Management Audit Division                               1
Issue Area Team Leaders                                                   25
Income Maintenance Branch, Office of Management and Budget                 1
Chairman, Committee on Ways and Means                                      1
Ranking Minority Member, Committee on Ways and Means                       1
Chief of Staff, Committee on Ways and Means                                1
Chairman, Subcommittee on Social Security                                  2
Ranking Minority Member, Subcommittee on Social Security                   1
Majority Staff Director, Subcommittee on Social Security                   2
Minority Staff Director, Subcommittee on Social Security                   2
Chairman, Subcommittee on Human Resources                                  1
Ranking Minority Member, Subcommittee on Human Resources                   1
Chairman, Committee on Budget, House of Representatives                    1
Ranking Minority Member, Committee on Budget, House of Representatives     1
Chairman, Committee on Government Reform and Oversight                     1
Ranking Minority Member, Committee on Government Reform and Oversight      1
Chairman, Committee on Governmental Affairs                                1
Ranking Minority Member, Committee on Governmental Affairs                 1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Committee on Appropriations, U.S. Senate              1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                   1
Chairman, Committee on Finance                                                 1
Ranking Minority Member, Committee on Finance                                  1
Chairman, Subcommittee on Social Security and Family Policy                    1
Ranking Minority Member, Subcommittee on Social Security and Family Policy     1
Chairman, Senate Special Committee on Aging                                    1
Ranking Minority Member, Senate Special Committee on Aging                     1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Social Security Advisory Board                                                 1
AFGE General Committee                                                         9
President, Federal Managers Association                                        1
Regional Public Affairs Officer                                                1


Total                                                                         97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees,third
parties, and by SSA employees in the performance of their duties. Or also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA ' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
